<html>
<title> - VIEWS ON H.R. 4298, VIETNAM HELICOPTER CREW MEMORIAL ACT; AND H.R. 5458, VETERANS TRICARE CHOICE ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-137]

 
                      VIEWS ON H.R. 4298, VIETNAM

                     HELICOPTER CREW MEMORIAL ACT;

               AND H.R. 5458, VETERANS TRICARE CHOICE ACT

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 8, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     
                               __________
                                 
  
                      U.S. GOVERNMENT PUBLISHING OFFICE                    
 22-455                       WASHINGTON : 2017                     
            
 ----------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a> 


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    JOSEPH J. HECK, Nevada, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOHN KLINE, Minnesota                ROBERT A. BRADY, Pennsylvania
MIKE COFFMAN, Colorado               NIKI TSONGAS, Massachusetts
THOMAS MacARTHUR, New Jersey, Vice   JACKIE SPEIER, California
    Chair                            TIMOTHY J. WALZ, Minnesota
ELISE M. STEFANIK, New York          BETO O'ROURKE, Texas
PAUL COOK, California
STEPHEN KNIGHT, California
               Jeanette James, Professional Staff Member
                Craig Greene, Professional Staff Member
                           Colin Bosse, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     1
Heck, Hon. Joseph J., a Representative from Nevada, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Amodei, Hon. Mark E., a Representative in Congress from the State 
  of Nevada......................................................     2
Hallinan, Patrick K., Executive Director, Arlington National 
  Cemetery.......................................................     4
Hesselbein, Bob, Chairman, Legacy Committee, Vietnam Helicopter 
  Pilots Association.............................................     5
Secord, Bill, Legislative Affairs Chairman, Air Line Pilots 
  Association....................................................    11

                                APPENDIX

Prepared Statements:

    Amodei, Hon. Mark E..........................................    21
    Hallinan, Patrick K..........................................    24
    Heck, Hon. Joseph J..........................................    19
    Hesselbein, Bob..............................................    30
    Secord, Bill.................................................    35

Documents Submitted for the Record:

    Statement of The National Association for Uniformed Services.    45

Witness Responses to Questions Asked During the Hearing:

    Dr. Heck.....................................................    51

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  VIEWS ON H.R. 4298, VIETNAM HELICOPTER CREW MEMORIAL ACT; AND H.R. 
                   5458, VETERANS TRICARE CHOICE ACT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                       Washington, DC, Thursday, September 8, 2016.
    The subcommittee met, pursuant to call, at 3:33 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joseph J. Heck 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOSEPH J. HECK, A REPRESENTATIVE FROM 
      NEVADA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Dr. Heck. Good afternoon. Today's subcommittee meets to 
hear testimony on two important but very diverse subjects, the 
eligibility of TRICARE beneficiaries to enroll in health 
savings accounts, or HSAs, and the placement of a memorial 
within Arlington National Cemetery [ANC] to honor helicopter 
pilots and crew members who died while flying in combat in 
Vietnam.
    I want to thank Representative Mark Amodei from my home 
State of Nevada and Representative Chris Stewart from Utah for 
introducing H.R. 4298, the Vietnam Helicopter Crew Memorial 
Act, and H.R. 5458, the Veterans TRICARE Choice Act, 
respectively.
    I appreciate your support for our service members and 
retirees and for your willingness to honor those who gave the 
ultimate sacrifice. I welcome both of you here today.
    We will have two panels. The first to discuss the Vietnam 
Helicopter Crew Memorial Act, and the second to discuss the 
Veterans TRICARE Choice Act. I am interested in hearing from 
our witnesses today, their views on each of these bills as they 
have been introduced in the House of Representatives.
    With that, I want to welcome our witnesses. I look forward 
to their testimony.
    And before I introduce our panel, I would like to offer 
ranking member, Mrs. Davis, from San Diego, an opportunity to 
make any opening remarks.
    [The prepared statement of Dr. Heck can be found in the 
Appendix on page 19.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you very much, Mr. Chairman. And just 
very briefly, I certainly want to welcome our witnesses as 
well. The two issues that we have before us today are not as 
easy to address as one might believe, weighing the decision to 
create a commemorative monument against when, at the same time, 
we are ensuring states of future burials in Arlington National 
Cemetery is not an issue to be taken lightly.
    We are also discussing another important topic today, to 
allow those eligible for TRICARE to also be eligible for health 
savings accounts. Both policy decisions could have positive and 
negative impacts, as just about everything we do does. It is 
never simple, right? I look forward to hearing from our 
witnesses on both of these issues and working together to find 
solutions.
    Thank you, Mr. Chairman.
    Dr. Heck. Thank you, Mrs. Davis.
    At this time, without objection, I ask unanimous consent 
that an additional statement from the National Association of 
Uniformed Services be included in the record of this hearing.
    Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 45.]
    Dr. Heck. We will try to go as quickly but as effectively 
as we can before they call votes. As you have all been 
informed, we are probably going to have a vote series that will 
interrupt this hearing.
    So I will welcome our first panel. The Honorable Mark E. 
Amodei of the second district of Nevada; Mr. Patrick Hallinan, 
executive director for Arlington National Cemetery; and Mr. Bob 
Hesselbein, chairman, Legacy Committee, Vietnam Helicopter 
Pilots Association.
    With that, Mr. Amodei, you have 5 minutes.
    Hit your button.

STATEMENT OF HON. MARK E. AMODEI, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Amodei. Hi. On this mike in front of you. For your 
record, Mark Amodei from the second district of Nevada.
    I understand the primary mission of ANC. The staff has been 
outstanding to work with. I have learned a lot in two visits to 
ANC to find out what is going on with ANC in terms of its 
history, present operations, expansion plans, and what they 
plan to do in the future.
    I understand that the primary mission of ANC is to conduct 
burials. But when you look at what the legislation says that 
was passed by this House, it says that is the primary mission, 
and you are going to hear about that, and there is no dispute 
about that here today. But there is nothing in the legislation 
that says you can't have memorials at ANC.
    And, quite frankly, when you look at the history, in the 
last 27 years, there have been four memorials constructed at 
ANC. So many times you hear the argument, well, oh my God, if 
we let this one in, they are all coming in. The bar is pretty 
high, and it should be very high. But I got to tell you, ANC is 
a phenomenal and unique national treasure. This application is 
a phenomenal and unique memorial request. This is not somebody 
with somebody's favorite unit or whatever and, hey, we want to 
do this or that. This is almost 10 percent of the casualties in 
the helicopter war. Let me repeat that. Almost 10 percent of 
the casualties in the helicopter war. And that is not just 
pilots and crew members. That is medics and, by the way, it is 
all branches of service: Air Force, Marine Corps, Army, Navy, 
medics, crew members, crew chiefs.
    And so when you look at this and you say, is there no 
application that is worthy? Indeed, it is interesting to note 
that the advisory committee tied on this issue. It was 3-3. One 
member was absent. So they sent it up to the executive director 
and to the Secretary of the Army, and they made their call. And 
with due respect, it is like I understand that. But my concern, 
and the reason for introducing the legislation, which I didn't 
do lightly, is my fear is that we have a de facto standard if 
these folks can't make it, helicopter casualties in the 
helicopter war, 10 percent. And I won't steal the colonel's 
thunder here. If this isn't worthy--and, by the way, Mr. 
Chairman, with your permission, I have a visual aid. As you can 
see, this is a very expensive visual aid.
    Members of the committee, this is 5 square feet. And you 
said, gee, that is a nice visual aid there, Mr. Amodei. That is 
what they have asked for, 5 square feet. That is a thousand 
casualties per square foot, if you want to look at it that way. 
Four of these in 25 years. That could be the fifth one, and who 
knows when the next one is. That is not the sort of thing that 
is going to crowd out burials at ANC.
    And I would remind you, when you look at that legislation 
again, primary mission, no doubt about it, 10 percent of the 
casualties, 5 square feet. There are areas that are unsuitable 
for graves. So what these folks are asking for--and listen, 
this is one of the few times I can say it anymore, I am too 
young to have said, you know, I served in Vietnam, thankfully. 
It is one of the few things I am too young for. But you grew up 
with that war on TV. It was the first TV war, too, probably.
    And so you look at that, and as you think about people in 
your communities, as you think about medics, as you think about 
Air Force people, as you think about Army people, Navy people, 
Marine Corps folks, how many people's names aren't on that wall 
down the street because these folks were around doing their 
job?
    So I would submit to you, ANC is a national treasure. This 
is a unique request that the advisory committee tied on. And so 
here we are saying, hey, you know what, let's really make sure 
we take a good look at this, because this is a pretty worthy 
cause. The request is for that much. We ought to be able to 
find 5 square feet for something special for nearly 5,000 
casualties in the helicopter war for people who died on those.
    And so with that, I would just say, a working standard that 
doesn't allow a worthy application to make that grade is a 
working standard, quite frankly, that needs a little bit of 
help. Because the answer shouldn't start with no. It should be, 
you have got a very high standard to meet, and if you meet it, 
though, we will give you that much square feet.
    Thank you, Mr. Chairman. And I yield back.
    [The prepared statement of Mr. Amodei can be found in the 
Appendix on page 21.]
    Dr. Heck. Thank you, Congressman Amodei.
    Next, we will hear from Mr. Hallinan.

STATEMENT OF PATRICK K. HALLINAN, EXECUTIVE DIRECTOR, ARLINGTON 
                       NATIONAL CEMETERY

    Mr. Hallinan. Chairman Heck, Ranking Member Davis, and 
distinguished members of the subcommittee, thank you for the 
opportunity to provide the Department of the Army's views on 
the Vietnam Helicopter Memorial Act.
    Arlington National Cemetery is our Nation's unique and 
iconic resting place devoted to those individuals who made a 
significant sacrifice and commitment to the defense of our 
country in the armed services. Arlington National Cemetery is 
recognized as a national treasure and is an active military 
cemetery, interring over 7,000 individuals annually. Since 
1864, these hallowed grounds have been the final resting place 
for more than 400,000 Active Duty service members, veterans, 
and their family. It is our duty and the United States Army's 
commitment to ensure Arlington National Cemetery remains an 
active cemetery as long as space accommodations allow us to 
honor those who have served our Nation in the military. On 
behalf of the cemetery and the Department of the Army, I 
express our appreciation for the support that Congress has 
provided over the years.
    Current law directs Arlington National Cemetery to preserve 
space not conducive to ground burial of human remains for the 
memorialization of individual service members whose remains are 
missing, never recovered, scattered, or buried at sea.
    Over the past 25 years, as the Congressman pointed out, 
only four monuments have been approved and installed in 
Arlington National Cemetery. The two most recent being in 2002 
and 2011, the Battle of the Bulge and the Jewish Chaplains 
Memorial, respectively, each of which were authorized through 
congressional legislation.
    The proposed Vietnam Helicopter Crew Memorial Act 
legislation, as drafted, would direct the Secretary of the Army 
to place in Arlington National Cemetery a monument honoring the 
helicopter pilots and crew members of the Vietnam era, and for 
other purposes.
    This legislation does not address the broader concerns of 
preserving the life of the cemetery well into the future. By 
virtue of longstanding Army policy and rulemaking, 
commemorative monuments may only be placed in Arlington 
Cemetery after a collaborative and deliberative process. 
Monuments reduce land that would otherwise be used for burial 
memorialization of our killed in action [KIA], deceased on 
Active Duty service members, veterans, and their eligible 
family members.
    The initial request from the Vietnam Helicopter Pilots 
Association was processed in accordance with the 2012 National 
Defense Authorization Act and public law. The appropriate 
congressional oversight committees were notified of the 
Secretary of the Army's decision to disprove the request for a 
commemorative monument. In its stead, he did approve the 
placement of a plaque at the base of a living tree. While other 
veteran's organizations have had their request for tree plaques 
disapproved in order to preserve space at the cemetery, the 
Secretary chose to allow a tree plaque honoring those members 
of the Vietnam Helicopter Pilots Association.
    Given the present rate of burials and the dwindling 
inventory of available gravesites and niches, Arlington 
National Cemetery will close for first interments or inurnments 
in the 2030s. The reality is space is finite. Each year, ground 
burial is denied to veterans whose service does not rise to the 
level to justify displacement of eligible veterans. 
Additionally, under current eligibility, any future casualties 
of our Nation--excuse me. Each ground burial is denied current 
veterans justify displacement of an eligible--additionally, any 
current eligible future casualty our Nation sustains after 
2030s may find space not available at Arlington National 
Cemetery for those who pay the ultimate sacrifice, our killed-
in-action service members.
    Arlington National Cemetery is devoted to ensuring the most 
important memorials are placed in our hallowed grounds. Those 
are the individual government headstones marking the resting 
places of the veterans who have served and sacrificed their 
life in service to our Nation. We are responsible for ensuring 
commemoration in perpetuity, as established by law. Maintaining 
individual memorialization of those who have earned a place at 
Arlington is the most important responsibility we as a Nation 
hold at Arlington National Cemetery. This was the key 
consideration for the cemetery staff and the advisory committee 
of Arlington National Cemetery when they reviewed and made 
their recommendation to the Secretary of the Army. His 
thoughtful and detailed review found the same and resulted in 
his decision.
    The Army understands the general intent of the legislation 
to honor these veterans and their service. However, as stewards 
of our most hallowed military burial grounds, Arlington 
National Cemetery must diligently preserve the land, which is 
ultimately designated for the sole purpose of providing the 
final resting place for our heroes who were killed in action, 
Active Duty service members, veterans, and their eligible 
family members. Any structure, commemorative or utilitarian in 
nature, that diverts from the expressed mission should be 
placed in other locations suitable for their representation.
    Chairman Heck, Ranking Member Davis, this concludes my 
testimony. I will gladly respond to any questions you or the 
subcommittee may have.
    [The prepared statement of Mr. Hallinan can be found in the 
Appendix on page 24.]
    Dr. Heck. Thank you, Mr. Hallinan.
    And I think we will probably have time to get through Mr. 
Hesselbein's opening statement and then we will come back for 
questions.
    So Mr. Hesselbein, you are recognized for 5 minutes.

   STATEMENT OF BOB HESSELBEIN, CHAIRMAN, LEGACY COMMITTEE, 
             VIETNAM HELICOPTER PILOTS ASSOCIATION

    Mr. Hesselbein. Thank you, Chairman Heck, Ranking Member 
Davis, and other distinguished members of the committee. It is 
a privilege to be here today to speak not only on behalf of the 
Vietnam Helicopter Pilots Association but also the Vietnam 
Helicopter Crew Members Association to speak in favor of H.R. 
4298, the Vietnam Helicopter Crew Member Memorial.
    We currently are over 10,000 members strong in our two 
organizations, and we achieve membership by a difficult manner. 
We are from all branches of service. The commonality, we served 
the Army, Navy, Air Force, Marines, and Coast Guard. We earned 
our membership as combat helicopter pilots and crew members in 
the Vietnam War, the war as you have heard already described as 
the helicopter war. I can also say I speak informally for the 
many Gold Star families who still mourn the loss of their 
husband, their son, or brother killed while operating a rotary-
wing aircraft in Southeast Asia from 1961 to 1975.
    We know why we want to honor those in Arlington National 
Cemetery. We want to make sure that we clarify that this 
memorial is to honor those who died, the almost 5,000. Some 41 
years after the end of the Vietnam War, we are still without a 
single memorial in the Nation that honors the all-service 
commitment and dedication, the last full measure that 
approximately 5,000 rotary-wing pilots, crew chiefs, medics, 
and door gunners gave during the conflict. And many, might I 
add, who are buried right now in Arlington National Cemetery.
    I would like to remind you that during the Vietnam War, the 
helicopter became the mainstay for joint operational mobility. 
12,000 helicopters, 12,000 helicopters were used by all 
military services, Army, Navy, Marines, and Air Force, and of 
those, over 5,000--5,086, were destroyed by enemy fire or 
mishaps related to the missions they did. The losses because of 
this incredible mission that they flew were also great: 2,002 
pilots killed, 2,704 nonpilot crew members died, and at least 
532 United States military passengers perished; 9 percent. We 
don't have a good number on how many Vietnamese that were 
carried on our helicopters died while being passengers being 
medevac'd or being resupplied. We have no numbers on that. But 
we can say roughly 9 percent of the 58,307 Vietnamese war 
casualties died in the helicopters.
    The helicopters and the brave crews who operated these 
machines stand as the iconic symbol of the Vietnam War. 
Virtually all writings, documentaries, and films of the war 
include remembrances of combat helicopters because they were 
ubiquitous to the experience of that war.
    Despite the Vietnam War being described as the helicopter 
war, and the UH-1 Iroquois Huey being recognized as the symbol 
of the war, as I must say again, no specific memorial exists 
anywhere strictly honoring their sacrifice.
    Individual branches do have memorials, such as the United 
States Army Aviation Museum at Fort Rucker that named 4,347 
aviation casualties, but no one memorial remembers them all. No 
military cemetery to this day possesses a memorial specifically 
dedicated to those who died in helicopter losses in Vietnam, 
Cambodia, Laos. No other cemetery, however, provides a superior 
location to Arlington National Cemetery. And frankly, it is a 
logical place to honor those who flew and died in the war.
    ANC holds the remains of many individual pilots and crew 
members who were immediately interred during the war. 
Incidentally, some 20 percent of all casualties who came to be 
buried during the war that were buried at Arlington National 
Cemetery, 20 percent of those are helicopter pilots and crew 
members. One-fifth of all those who died in the war that were 
buried at Arlington were helicopter pilots and crew members. 
And incidentally, it is the only military cemetery that holds 
the recovered remains of missing-in-action [MIA] crews and 
others. Section 60 has whole crew members. They call them 
commingled remains, but they are all at Arlington National 
Cemetery. And also incidentally, those of you sitting in this 
room, many of us will also be buried in Arlington National 
Cemetery, helicopter pilots, members, and such.
    I would like to say one thing about the cemetery. You know, 
it holds symbolic value held nowhere else. If New York City is 
the heart of the Nation's finances, if Washington, D.C., is the 
heart of the political place, then Arlington National Cemetery 
is the heart of our military conscience. It is where we go to 
remember the cost of the war. It is where we go to see our 
fallen warriors. And for us veterans of war, it is the place we 
go to visit our young friends who died in combat.
    If you look at this memorial, it is designed to blend in 
with the aesthetic of Arlington National Cemetery and to 
reflect what the commingled remains look like in their mixed 
graves, combined remains, all having one stone, much like that. 
If you look at it, it is a Huey approaching, it is approaching 
a safe place. The machine guns are stowed, because they are 
coming to a place of safety. Below, we have five shields for 
the branches of service, because every branch of service, to 
include the Coast Guard, has aviators and crew members buried 
in Arlington National Cemetery who died during the war. And in 
the center, the simple words, some taken from Lincoln's 
Gettysburg Address, express our feelings for their loss.
    And I would like to say, it is all going to be done at 
private expense. We will pay to have it built. We will pay to 
have it installed, and we have set aside the funds, and we have 
the funds to have a lifelong trust set up for this thing.
    Now, there are voices who say Arlington can't accept 
additional memorials and all unused ground must be reserved for 
future graves, but there are places in Arlington National 
Cemetery that will never have graves. There are utility lines. 
There are tree roots that can't take 6 feet or 8 feet of 
digging, but they can certainly take a memorial such as this 
that only goes about a foot and a half into the ground. It is 
suitable.
    Some fear also, fear as we have said before, that it will 
result in a flood of legislation. Well, that is simply not held 
true, as we discussed. Two legislations, and of those two, only 
one was a combat recognition for men who died during the Battle 
of the Bulge and women who died in the Battle of the Bulge. 
That was 14 years ago. And also the reason there won't be 
another flood--and I will only take 1 minute of your time, with 
your permission, sir--is that the average age of the veterans 
of Vietnam is now 72. I am the youngest. I was a 19-year-old 
gunship pilot in 1972, and I am 64 years old today. You won't 
have many veterans groups coming to you seeking more memorials, 
because simply, we are dying. We will be dead soon.
    We are not asking for something new. As Executive Director 
Hallinan spoke, we have been authorized about a foot and a 
half. A foot and a half for a small tree marker. Well, we 
looked at the tree markers, 142, and we found most of those are 
not significant to the casualties or a 13-year war. They are 
for smaller events and smaller groups, all worthy but not to 
the magnitude of this loss and this amount of time.
    We have a foot and a half of space now. We would like five. 
And we ask you, representing the people of the United States, 
to help us with this. We ask you to abide to this and pass bill 
H.R. 4298.
    Thank you for listening to my witness testimony.
    [The prepared statement of Mr. Hesselbein can be found in 
the Appendix on page 30.]
    Dr. Heck. I would like to thank all our witnesses. We will 
stand in recess until we reconvene after the votes.
    [Recess.]
    Dr. Heck. Okay. We will reconvene the hearing and take up 
questions.
    I will begin and put me on the clock for 5 minutes.
    Mr. Hallinan, in your testimony, you know, you raised the 
issue, rightfully so, of the diminishing space for interments. 
Just for my edification, how many square--how many acres does 
Arlington occupy?
    Mr. Hallinan. Mr. Chairman, Arlington presently occupies 
624 acres.
    Dr. Heck. Okay. And of those 624, do you know how many 
acres are not suitable for interments?
    Mr. Hallinan. I would have to take it as a do up to get an 
estimate for you, sir, an accurate estimate. But just about 
every space in Arlington that we look at, if it is not suitable 
for burial space, it is very important to keep in mind that it 
is suitable for an MA [memorial area] marker, a memorial 
marker, so those airmen and those marines and those other 
combat people missing that have never been recovered, we can 
put a memorial marker in those spaces for their families. So it 
serves a purpose, and we look at that very critically, sir.
    Dr. Heck. And how big are those markers?
    Mr. Hallinan. Well, the markers themselves, they are just 
standing upright headstone markers, but they can fit in a 4- or 
5-foot space.
    Dr. Heck. Okay. So not as much--so the same headstone, just 
not on the amount of space required for an interment?
    Mr. Hallinan. Correct, sir.
    Dr. Heck. Okay. So I would appreciate it if you would get 
back with how much space is not suitable for burial.
    [The information referred to can be found in the Appendix 
on page 51.]
    Dr. Heck. And so for all the space, then, that is not 
suitable, you hold that in reserve for one of these other 
markers. Is that correct, that is the current operating 
procedure?
    Mr. Hallinan. Correct. We look at it as future potential 
for MA markers, memorial markers.
    Dr. Heck. Okay. Do you know how many of those markers have 
been placed?
    Mr. Hallinan. I will take it as a do up, sir.
    [The information referred to can be found in the Appendix 
on page 51.]
    Dr. Heck. Okay. And how many monuments that honor groups of 
individuals who serve in a particular war conflict are located 
in Arlington?
    Mr. Hallinan. I would have take that as a do up, Mr. 
Chairman, to answer your question specifically how many are 
actually for a unit or for a battle, because there are so many 
different types of monuments at Arlington.
    [The information referred to can be found in the Appendix 
on page 51.]
    Dr. Heck. Okay. All right.
    And, Mr. Hesselbein, is there a particular location that 
you have requested the memorial be placed inside of ANC, or are 
you just asking for a location at the selection of the 
Secretary of the Army and Arlington officials?
    Mr. Hesselbein. We appreciate the opportunity to have our 
memorial placed in Arlington National Cemetery. We were asked 
to offer some ideas of where we thought it would be 
appropriate, and there are certain areas near section 60 that 
are suitable, section 66. And also, the new parts of Arlington 
National Cemetery that will be expanding soon, where Henderson 
Hall space has been given up. There will be no memorials there 
whatsoever. And that would be certainly an attractive area to 
sort of I don't want to say add to it, but place memorials more 
than just the graves.
    Dr. Heck. And other than those locations, if ANC came back 
and said, hey, we understand you like 60, 66, or maybe where 
the expansion is, but we have this?
    Mr. Hesselbein. I think our--our primary goal is to get a 
memorial within Arlington National Cemetery, and we know the 
staff would be very conscientious in trying to place it in an 
appropriate place. And, frankly, we would not come to this 
meeting and tell them, demand where they want it to be, because 
we know they would be sensitive and put it in an appropriate 
location.
    Dr. Heck. Okay. Thank you. I have no further questions.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you, all, 
for your thoughtfulness around this.
    Mr. Hallinan, you know, as we look at this issue, I 
wonder--it seems, you know, maybe pretty logical and reasonable 
to do that, and yet I know that in the position that you are 
in, you have to be thinking far enough ahead. And one of the 
suggestions I--you know, and I appreciate Mr. Hesselbein saying 
that, well, we are kind of giving the issue of where this might 
be if, in fact, there were this kind of memorial and perhaps 
others that are raised to the standard that this would be as 
well.
    Can you think of areas where, in fact, something like that 
might be appropriate and perhaps it would be more than one kind 
of memorial along those lines, different from the memorials 
that have already been discussed in tree plaques and other 
things like that?
    Mr. Hallinan. The space, as I mentioned in my written 
statement, is finite. And we are all looking towards the future 
and keeping space available. As we look towards the future 
expansion, and as my colleague here speaks about Henderson 
Hall, we are really expanding at a millennium project, which is 
away from Henderson Hall.
    When you look, any space that we would designate for that 
purpose could still be used in the future for a burial or for a 
memorial marker for someone that is missing. So that is really 
the issue. And I understand that, hey, it is only 5 feet, but 5 
feet is a grave site. Five feet is an eligible veteran not 
being interred when the family has need. And I also understand 
the importance of monuments.
    And, Mr. Chairman, we have 451 group markers, my staff has 
let me know, in answer to your question. But the most important 
monument at that cemetery are the individual headstones that 
talk about that person and their service to the Nation. Whether 
it is the branch of service they are in, the war conflict they 
were in, that is the most important monument.
    So we understand the request for monuments. We have other 
requests pending. We have five pending requests for additional 
monuments at Arlington now, and to try to balance the desires 
and needs of the various organizations, with our primary 
mission, that is the really difficult question you pointed out. 
That is a difficult issue. Our primary mission is to make sure 
that we can honor those who have passed and those we have not 
recovered. And so we----
    Mrs. Davis. Thank you.
    Mr. Hallinan [continuing]. We are protective of the space.
    Mrs. Davis. I appreciate that.
    Mr. Hesselbein, I actually spoke to Mr. Amodei just very 
briefly, just thinking about other possibilities or 
considerations. I understand Arlington National Cemetery 
obviously is sacred to all of us. So I have had such moving 
experiences at the Vietnam Memorial, and I wonder whether that 
was something that you all had thought about or considered?
    Mr. Hesselbein. That is a wonderful question. We looked at 
the Vietnam Veterans Memorial location. There are two 
additional memorials in there. Then Congress passed a bill 
literally saying that it would have to come to them. There is 
incredible inertia against placing any new memorials upon the 
National Mall. In particular, there is great resistance, in 
addition to that, to placing any other additional memorials 
around the Vietnam Veterans Memorial itself.
    So we felt that also Arlington, with a great number of 
casualties, the great number of helicopter pilots who died and 
crew members who died that are buried there, that is the place 
to have this. If you haven't been to section 60, go there and 
look at all the large gray marble slabs of MIA crews being 
brought home, several crews last year, and they keep coming to 
Arlington, and that is the place that we would like to see our 
friends, our brothers, remembered.
    Mrs. Davis. Yeah. All right. Thank you.
    Thank you, Mr. Chairman.
    Dr. Heck. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you, Congressman Amodei, for bringing this issue 
forward.
    I was in the Army but too late for Vietnam. I did come in 
in 1972, but when I came out of the pipeline, they weren't 
sending any ground troops to Vietnam anymore. And I later 
transferred to the Marine Corps and then left Active Duty. And 
an assignment I had as reservist at one time was to go through 
the files of those missing in action in Vietnam from Colorado 
and contact the families and give them an update. Well, there 
really wasn't much of an update. It was just--but the Marine 
Corps felt that they wanted to have--maintain strong 
communications with the family. So even though there wasn't new 
information, that there was a requirement to contact the 
families of those missing in action.
    In going through the files from--and I can't remember what 
the total number was, probably--I know there was more than 20. 
And I would say they were all aviation accidents--or aviation 
incidents, save one that was the Mayaguez incident where there 
were some--there were marines that were not accounted for in 
the evacuation of the U.S. citizens on the Mayaguez post-
Vietnam in the aftermath of our involvement in the Vietnam War.
    But I--you know, it would be, like, helicopter went down 
South China Sea, bodies not recovered. And so I think that to 
me, this monument represents those who are--you know, in very 
high casualties, I think you said, 10 percent of the casualties 
in Vietnam. And as a first Gulf War in Iraq war veteran, when I 
compare the casualties of Vietnam to the casualties that we 
faced, I mean, quite frankly, they were losing during the 
height of the--1967, 1968, 1969. They averaged a thousand 
killed in action a month in the war in Vietnam, which is 
extraordinary.
    So I just feel that this--and the fact is that air mobility 
was central to the war and to prosecuting the war in Vietnam. 
And so I think that it is fitting that we have a memorial 
specific to that in Arlington.
    So I would ask to be put down as a cosponsor on your bill. 
I suppose that is not normal to do that during the hearing, but 
I thank you so much for bringing this forward.
    I yield back, Mr. Chairman.
    Dr. Heck. Okay. Well, I thank all the witnesses for your 
testimony today. We will take the matter under advisement and 
see if there is a path forward.
    So we will end the first panel, and then we will change out 
and bring the second panel up to discuss Mr. Stewart's bill, 
the Veterans TRICARE Choice Act.
    [Recess.]
    Dr. Heck. All right. We will go ahead and move into our 
second panel.
    This one on Mr. Stewart's bill, the Veterans TRICARE Choice 
Act, which tries to open up TRICARE members to be able to 
participate in health savings accounts. We have but one 
witness, Mr. Bill Secord, a legislative affairs chairman for 
the Airline Pilots Association.
    Mr. Secord, you are recognized for 5 minutes.

  STATEMENT OF BILL SECORD, LEGISLATIVE AFFAIRS CHAIRMAN, AIR 
                    LINE PILOTS ASSOCIATION

    Mr. Secord. Thank you, sir. I would like to thank you and 
Ranking Member Davis and the distinguished members of this 
subcommittee for inviting me today. I would also like to thank 
the Military Personnel Subcommittee staff, and especially 
Jeanette James, for their substantive work to improve H.R. 
5458.
    I am pleased to testify in support of H.R. 5458, the 
Veterans TRICARE Choice Act. It is truly an honor to represent 
not only the many veterans within our association, but all of 
our Nation's veterans and their families, who have made such 
large sacrifices to protect our way of life.
    Upon entering military service, every Active Duty, 
reservist, and National Guardsman is enrolled in the Defense 
Enrollment Eligibility Reporting System, or DEERS. When the 
service member retires, he or she remains in DEERS and becomes 
immediately eligible for TRICARE benefits.
    Under section 223 of the Internal Revenue Code, a simple 
TRICARE eligibility precludes that military retiree from making 
contributions to or receiving employer contributions to an 
HRA--excuse me--an HSA, health savings account.
    The genesis of the Veterans TRICARE Choice Act came about 
during the FedEx pilot group's latest round of contract 
negotiations in 2014. Our healthcare experts proposed a high 
deductible healthcare plan with HSA, which would save our 
corporation money and also protect the pilots' healthcare 
benefits. But while conducting additional research, we realized 
that the TRICARE-eligible pilots would not be allowed to 
participate in the HSA portion of the plan, because as I stated 
earlier, TRICARE is not HSA compliant under the Internal 
Revenue Code.
    We further realized that the negative consequences would 
not only impact our members but also could impact millions of 
our Nation's veterans that are TRICARE eligible. We brought 
this to Congressman Chris Stewart's attention, himself a B-1 
bomber pilot for the Air Force. And in a great example of 
interservice support and bipartisanship, he joined forces with 
Congresswoman Tulsi Gabbard, who currently serves as a major in 
the Army, in the Hawaii Army National Guard, and with that, the 
Veterans TRICARE Choice Act was introduced.
    This legislation solves the problem of a TRICARE-eligible 
individual's inability to participate in an HSA by allowing the 
individual to voluntarily pause his or her TRICARE benefits in 
DEERS. During this period, the individual could participate in 
their employer's healthcare plan and HSA, the same as their 
civilian coworker. At any point in the future, if the 
individual decided that his or her TRICARE benefits would be a 
better fit, he or she could elect to return to TRICARE during 
an annual open enrollment period or upon a qualifying life 
event.
    The seamless transition back to TRICARE is made possible 
because the military retiree's information is retained in 
DEERS. This bill gives TRICARE-eligible individuals the 
flexibility to best care for their families and ensures them 
the same access to healthcare benefits that their civilian 
counterparts have.
    Now, some might argue that access to a health reimbursement 
account, or HRA, provides the same benefit as an HSA. While it 
is a similar benefit, there are some important differences. A 
health reimbursement account is just that, it is an account for 
reimbursement. It is an employer-controlled account funded only 
by the employer to reimburse the employee for approved medical 
expenses.
    An HSA, however, is an account that is employee controlled, 
that the employer and employee may deposit money into together.
    In 2016, an individual with family coverage may have up to 
$6,750 deposited in an HSA, with an additional $1,000 for those 
55 years of age and older. Assuming current contribution 
limits, a military retiree who retires at 40 would potentially 
have $178,750 deposited into an HSA over a 25-year period. This 
is money that can be invested and used for any future medical 
expense tax free.
    This legislation is a commonsense solution to ensure that 
our veterans have access to the same healthcare options offered 
by their employers to their civilian coworkers, and it gives 
them the flexibility to make the best choices for their 
family's healthcare needs.
    I thank you for your time and for your support of H.R. 
5458, and I look forward to your questions.
    [The prepared statement of Mr. Secord can be found in the 
Appendix on page 35.]
    Dr. Heck. All right. Thank you.
    So let me make sure I kind of--I am going to walk through a 
hypothetical timeline and you tell me how this works. So 
somebody enlisted at the age of 18, they retire after 20. At 
38, they are TRICARE eligible, but they opt not to take their 
TRICARE benefits because instead they are going to take another 
employee-based plan as a high deductible HSA-based plan. But in 
order to do that currently, they have to opt out of TRICARE, 
which they cannot do?
    Mr. Secord. Correct. Yeah, they currently cannot do that 
because they are not eligible for the HSA.
    Dr. Heck. And then at some point in the future, let's say 
they get to 65 and now they decide they want to go TRICARE For 
Life, they come back in--or if they leave that one employer, 
you know, and go someplace to another employer that doesn't 
offer the same high deductible HSA plan, they can come back 
into TRICARE?
    Mr. Secord. Yes, sir.
    Dr. Heck. So from your perspective, then, what would be--
what do you see as the most tangible benefit of allowing the 
military retirees to be able to opt out of TRICARE to purchase 
the high deductible plan with the HSA?
    Mr. Secord. Simple choice. It gives them the same options 
that their civilian coworkers have. I never had the honor of 
serving, but I think that a veteran should have every option 
that I do in our healthcare choices.
    Dr. Heck. Any estimate of how many military retirees? I 
mean, has there been a survey or anything that has been done to 
look at how many people might be interested in taking advantage 
of this option?
    Mr. Secord. No, sir, there are no numbers.
    Dr. Heck. I have no further questions.
    Mrs. Davis.
    Mrs. Davis. Thank you for being here and for presenting it.
    Do we have any idea of how this would score?
    Mr. Secord. Yes, ma'am. And I will quote the CBO 
[Congressional Budget Office] cost estimate. It said, quote, 
``CBO estimates that the effects on direct spending and 
spending subject to appropriation would be insignificant in any 
year and in total--in any year and in total over the 2017 to 
2026 time period.'' So insignificant.
    Mrs. Davis. Insignificant. Because it seems as if there 
would certainly be a hit, but maybe there are so few people 
that would be involved. Is that why?
    Mr. Secord. That would be--I mean, I could speculate that--
speculation, my guess would be that it would not be a large 
portion of veterans that would participate, but yes.
    Mrs. Davis. If beneficiaries were required to actively 
enroll in TRICARE, regardless if it was Prime or Standard to be 
eligible, would that alleviate the problem----
    Mr. Secord. No, ma'am.
    Mrs. Davis [continuing]. For those with high deductible?
    Mr. Secord. I'm sorry, could you ask the question again?
    Mrs. Davis. If the beneficiaries were required to actively 
enroll in TRICARE, regardless if it was Prime or Standard to be 
eligible, would that then alleviate the problem for those with 
high deductible health insurance plans offered by their 
employer?
    Mr. Secord. No, ma'am. Regardless of the TRICARE benefit 
that they have, they are not eligible under TRICARE.
    Mrs. Davis. Okay. They wouldn't be eligible?
    Mr. Secord. No, ma'am.
    Mrs. Davis. Okay. Thank you. I am still trying to get it. 
Thank you.
    Dr. Heck. So just because they are--even though they are 
not on TRICARE, they are retired, they are not using their 
TRICARE benefit, but just because they have the marker of being 
TRICARE eligible, under IRS [Internal Revenue Service] rules 
they are not able to use a high deductible HSA plan?
    Mr. Secord. Yes, sir.
    Dr. Heck. Okay. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Do we--so this hasn't been scored in terms of the actual 
cost of this, not to DOD [Department of Defense], but to 
Treasury?
    Mr. Secord. All I have is what I read, just that CBO 
estimates that it is insignificant in the 10-year period. I 
don't have any----
    Mr. Coffman. I don't see why those--I am on TRICARE.
    Mr. Secord. Sure.
    Mr. Coffman. But I didn't come on until age 60 because I 
have a Reserve retirement. But for those people on Active Duty, 
they will come off--you know, they can be 40, they can be as 
young as--well, they can be as young as 38. But probably the 
average age for somebody serving 20 years would probably be 
around 42, 43, 44 years old. And so, you know, if they don't 
want to take the benefit of TRICARE, if they want to delay that 
benefit and go with an HSA, they ought to be able to do that, I 
would think.
    Mr. Chairman, I yield back.
    Dr. Heck. All right. Well, as the sole witness, we 
appreciate your being here today to present on the bill. We 
will take it under advisement and see if there is a path 
forward.
    Mr. Secord. Thank you, sir.
    Dr. Heck. There being no further business before the 
committee, we stand adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                           September 8, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 8, 2016

=======================================================================

     [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 8, 2016

=======================================================================

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 8, 2016

=======================================================================

    

              RESPONSES TO QUESTIONS SUBMITTED BY DR. HECK

    Mr. Hallinan. Of the 624 acres at Arlington National Cemetery 
(ANC), 534 acres are dedicated to above ground or in ground burials. 
Approximately 90 acres are not currently suitable for burials due to 
current infrastructure (Roads, Sidewalks and facilities) and existing 
cultural resources (Tomb of the Unknown Soldier, Memorial and Tanner 
Amphitheaters, Section 29 Arlington Woods forest and numerous other 
points of interest). In accordance with Public Law 112-154 codified in 
Title 38 USC Sec 2409, the Secretary of the Army is to set aside, when 
available, suitable areas at ANC to honor the memory of members of the 
Armed Forces and veterans--
    (1) who are missing in action;
    (2) whose remains have not been recovered or identified;
    (3) whose remains were buried at sea, whether by the member's or 
veteran's own choice or otherwise;
    (4) whose remains were donated to science; or
    (5) whose remains were cremated and whose ashes were scattered 
without interment of any portion of the ashes.   [See page 8.]
    Mr. Hallinan. As of September 8, 2016 there are 2,857 individuals 
commemorated on memorial markers (government upright white headstones 
with ``in memory of'' on the stone).   [See page 8.]
    Mr. Hallinan. As of September 8, 2016 there are 451 group markers 
located in Arlington National Cemetery. These mark graves containing 
co-mingled human remains of service members killed in multiple death 
incidents in action with the enemy.   [See page 9.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
